                                              EMPLOYMENT STANDARDS
                                              ADMINISTRATION



Office of Inspector General—Office of Audit




                                              SPECIAL REPORT RELATING TO THE
                                              FEDERAL EMPLOYEES’ COMPENSATION ACT
                                              SPECIAL BENEFIT FUND
                                              September 30, 2005




                                               This report was prepared by M.D. Oppenheim & Company, P.C., under
                                               contract to the U.S. Department of Labor, Office of Inspector General, and
                                               by acceptance, it becomes a report of the Office of Inspector General.


                                                                                     __________________________
                                                                                    U.S. Department of Labor
                                                                                    Assistant Inspector General for Audit




                                                                      Date Issued: October 21, 2005
                                                                      Final Report Number: 22-06-006-04-431
                                                                          Special Report Relating to the
                                                Federal Employees’ Compensation Act Special Benefit Fund


Table of Contents
Assistant Inspector General for Audit’s Memorandum……………………… .......................... 3

1.    A.   Independent Auditors' Report on the Schedule of Actuarial Liability, Net
            Intra-Governmental Accounts Receivable and Benefit Expense........................ 5

      B.   Schedule of Actuarial Liability, Net Intra-Governmental Accounts
            Receivable and Benefit Expense ........................................................................... 7

      C.   Notes to the Schedule of Actuarial Liability, Net Intra-Governmental
            Accounts Receivable and Benefit Expense.......................................................... 8

2.    A.   Independent Accountants' Report on Applying Agreed-Upon
            Procedures............................................................................................................. 13

      B.   Schedules

             Schedule of Actuarial Liability by Agency......................................................... 15

             Schedule of Net Intra-Governmental Accounts Receivable by Agency.......... 17

             Schedule of Benefit Expense by Agency........................................................... 19

      C.   Agreed-Upon Procedures and Results

             Summary ............................................................................................................... 21

             Actuarial Liability ................................................................................................. 22

             Net Intra-Governmental Accounts Receivable .................................................. 28

             Benefit Expense ................................................................................................... 30

Appendix
             Acronyms and Abbreviations ............................................................................. 37




Prepared by M.D. Oppenheim & Company, P.C., for the                                                                                  1
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-006-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




2                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-06-006-04-431
                                                                Special Report Relating to the
                                      Federal Employees’ Compensation Act Special Benefit Fund
U.S. Department of Labor                             Office of Inspector General
                                                  Washington, DC 20210




                 Assistant Inspector General for Audit’s Memorandum


MEMORANDUM FOR:               FEDERAL AGENCIES WITH RESPONSIBILITIES
                              FOR THE FECA PROGRAM



FROM:                         ELLIOT P. LEWIS
                              Assistant Inspector General for Audit

SUBJECT:                      Special Report Relating to the Federal Employees’ Compensation
                              Act Special Benefit Fund – FY 2005
                              Report No. 22-06-006-04-431

Attached is the special report on the Federal Employees’ Compensation Act (FECA) Special
Benefit Fund (the Fund) that was prepared to assist in the audit of your agency’s annual financial
statements. The U.S. Department of Labor, Employment Standards Administration, Office of
Workers’ Compensation Programs (OWCP), administers the Fund and the DOL Office of
Inspector General is responsible for auditing the Fund.

The Office of Inspector General contracted with the independent certified public accounting firm
of M.D. Oppenheim & Company, P.C. to prepare the special report on the Fund as of and for the
year ended September 30, 2005. This special report consists of two separate reports. The first
report is an opinion on the total actuarial liability, net intra-governmental accounts receivable,
and total benefit expense of the Fund as of and for the year ended September 30, 2005. The
auditor issued an unqualified opinion on this report. The second report is an agreed-upon
procedures (AUP) report on the schedules of actuarial liability, net intra-governmental accounts
receivable and benefit expense by agency as of and for the year ended September 30, 2005. This
report includes a description of the procedures performed and the results of those procedures.

The sufficiency of the procedures referred to in the AUP is solely the responsibility of the parties
specified in this report. Consequently, neither the Office of Inspector General nor M.D.
Oppenheim & Company, P.C. makes any representations regarding the sufficiency of the
procedures. Because the AUP performed did not constitute an audit, the auditor did not express
an opinion on any elements, accounts or items as they pertained to the AUP report. Further,
neither the Office of Inspector General nor M.D. Oppenheim & Company, P.C. has any
obligation to perform any procedures beyond those listed in the attached report.




U.S. Department of Labor—Office of Inspector General                                               3
Report Number: 22-06-006-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

M.D. Oppenheim & Company is responsible for the attached special report dated October 7,
2005, and the conclusions expressed in the report. We reviewed M.D. Oppenheim & Company’s
report and related documentation and inquired of its representatives. Our review, as
differentiated from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, opinions on: the total
actuarial liability, net intra-governmental accounts receivable, and total benefit expense of the
Fund as of and for the year ended September 30, 2005; or the AUP report on the schedules of
actuarial liability, net intra-governmental accounts receivable and benefit expense by agency as
of and for the year ended September 30, 2005. However, our review disclosed no instances
where M.D. Oppenheim & Company, P.C. did not comply, in all material respects, with
generally accepted government auditing standards.

If you have any comments or suggestions on the contents or sufficiency of this report or the
procedures performed that you would like considered for future audits, please send your
comments via regular mail, facsimile, or e-mail to:


               Michael T. McFadden
               Director, Office of Accountability Audits
               U.S. Department of Labor
               Office of Inspector General
               200 Constitution Ave., N.W., Room N-5620
               Washington, D.C. 20210

               Fax: (202) 693-5237
               e-mail: mcfadden.michael@oig.dol.gov




4                                          U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-006-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund




                                       SECTION 1A
                       Independent Auditors’ Report on the
               Schedule of Actuarial Liability, Net Intra-Governmental
                    Accounts Receivable and Benefit Expense

  Victoria A. Lipnic, Assistant Secretary
  Employment Standards Administration, U.S. Department of Labor,
   Government Accountability Office, Office of Management and Budget,
   and Other Specified Agencies:

  We have audited the accompanying Schedule of Actuarial Liability, Net Intra-
  Governmental Accounts Receivable and Benefit Expense (the Schedule) of the
  Federal Employees' Compensation Act Special Benefit Fund as of and for the year
  ended September 30, 2005. This schedule is the responsibility of the U.S.
  Department of Labor's management. Our responsibility is to express an opinion on
  this schedule based on our audit.

  We conducted our audit in accordance with auditing standards generally accepted in
  the United States of America, and the standards applicable to financial audits
  contained in Government Auditing Standards, issued by the Comptroller General of
  the United States. Those standards require that we plan and perform the audit to
  obtain reasonable assurance about whether the Schedule of Actuarial Liability, Net
  Intra-Governmental Accounts Receivable and Benefit Expense is free of material
  misstatement. An audit includes examining, on a test basis, evidence supporting the
  amounts and disclosures in the Schedule of Actuarial Liability, Net Intra-
  Governmental Accounts Receivable and Benefit Expense. An audit also includes
  assessing the accounting principles used and significant estimates made by
  management, as well as evaluating the overall schedule presentation. We believe
  that our audit provides a reasonable basis for our opinion.

  In our opinion, the Schedule of Actuarial Liability, Net Intra-Governmental Accounts
  Receivable and Benefit Expense referred to above presents fairly, in all material
  respects, the actuarial liability, net intra-governmental accounts receivable and benefit
  expense of the Federal Employees' Compensation Act Special Benefit Fund as of and
  for the year ended September 30, 2005, in conformity with accounting principles
  generally accepted in the United States of America.




Prepared by M.D. Oppenheim & Company, P.C., for the                                       5
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-006-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

This report is intended solely for the information and use of the U.S. Department of
Labor, Government Accountability Office, Office of Management and Budget and those
Federal agencies listed in Section 2B of this report and is not intended to be and should
not be used by anyone other than these specified parties.




October 7, 2005




6                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-06-006-04-431
                                                                Special Report Relating to the
                                      Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 1B
                            U.S. Department of Labor
            Federal Employees’ Compensation Act Special Benefit Fund
               Schedule of Actuarial Liability, Net Intra-Governmental
                    Accounts Receivable and Benefit Expense
                 As of and For the Year Ended September 30, 2005


                                                                                 (Dollars in
                                                                                 Thousands)

       Actuarial Liability                                                       $ 26,007,693


       Net Intra-Governmental Accounts Receivable                                $ 3,648,135


       Benefit Expense                                                           $ 2,811,329




                   See independent auditors' report and accompanying notes to this financial schedule.

Prepared by M.D. Oppenheim & Company, P.C., for the                                                 7
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-006-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                      SECTION 1C
       Notes to the Schedule of Actuarial Liability, Net Intra-Governmental
                   Accounts Receivable and Benefit Expense
                As of and For the Year Ended September 30, 2005

1.    Significant Accounting Policies

      a.   Basis of Presentation

      This schedule has been prepared to report the actuarial liability, net intra-
      governmental accounts receivable and benefit expense of the Federal
      Employees' Compensation Act (FECA) Special Benefit Fund. The Special
      Benefit Fund was established by the Federal Employees' Compensation Act to
      provide for the financial needs resulting from compensation and medical benefits
      authorized under the Act. The U.S. Department of Labor (DOL), Employment
      Standards Administration (ESA) is charged with the responsibility of operating
      the Special Benefit Fund under the provisions of the Act. The schedule has been
      prepared from the accounting records of the Special Benefit Fund.

      The actuarial liability, net intra-governmental accounts receivable and benefit
      expense of the Special Benefit Fund have been considered specified accounts
      for the purpose of this special report and have been reported thereon. ESA is
      responsible for providing annual data to the CFO Act and other specified
      agencies. ESA's annual data is defined as the actuarial liability of the Special
      Benefit Fund. This annual data is necessary for the specified agencies to
      support and prepare their respective financial statements.

      The actuarial liability for future workers' compensation benefits is an accrued
      estimate as of September 30, 2005. The net intra-governmental accounts
      receivable is the amount due from Federal agencies for benefit payments paid to
      employees of the employing agency. The net intra-governmental accounts
      receivable includes amounts which were billed to the employing agencies
      through June 30, 2005, but not paid as of September 30, 2005, including prior
      years, if applicable, plus the accrued receivable for benefit payments not yet
      billed for the period of July 1, 2005 through September 30, 2005, less credits due
      from the public. Benefit expense consists of benefits paid and accrued for the
      period from October 1, 2004 to September 30, 2005, plus the net change in the
      actuarial liability for the year.

      Benefit payments are intended to provide income and medical cost protection to
      covered Federal civilian employees injured on the job, employees who have
      incurred a work-related occupational disease and beneficiaries of employees
      whose death is attributable to job-related injury or occupational disease.


8                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-06-006-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 1C
        Notes to the Schedule of Actuarial Liability, Net Intra-Governmental
                    Accounts Receivable and Benefit Expense
                 As of and For the Year Ended September 30, 2005

       The actuarial liability is computed from the history of benefits paid. The benefits
       paid, inflation and interest rate assumptions, and other economic factors are
       applied to the actuarial model that calculates the liability estimate.

b.     Basis of Accounting

       The accounting and reporting policies of the Federal Employees' Compensation
       Act Special Benefit Fund relating to the Schedule conform to accounting
       principles generally accepted in the United States of America.

       Statement of Federal Financial Accounting Standards (SFFAS) Number 5,
       Section 38, Accounting for Liabilities of the Federal Government, requires that a
       contingent liability be recognized when three conditions are met. First, a past
       event or exchange transaction has occurred. Second, a future outflow or other
       sacrifice of resources is probable. Finally, the future outflow or sacrifice of
       resources is measurable.

       An estimate of claims that have been incurred but not reported (IBNR) are
       included in the actuarial liability. Therefore, the actuarial liability represents the
       estimated present value of future compensation and medical payments based
       upon approved claims, plus a component for incurred but not reported claims.

2.     Actuarial Liability (Future Workers’ Compensation Benefits)

       The Special Benefit Fund was established under the authority of the Federal
       Employees' Compensation Act to provide income and medical cost protection to
       covered Federal civilian employees injured on the job, employees who have
       incurred a work-related occupational disease and beneficiaries of employees
       whose death is attributable to a job-related injury or occupational disease. The
       fund is reimbursed by other Federal agencies for the FECA benefit payments
       made on behalf of their workers.

       The actuarial liability for future workers’ compensation reported on the schedule
       includes the expected liability for death, disability, medical and miscellaneous
       costs for approved cases. The liability is determined using a method that utilizes
       historical benefit payment patterns related to a specific incurred period to predict
       the ultimate payments related to that period.

       Consistent with past practice, these projected annual benefit payments have
       been discounted to present value using the Office of Management and Budget's

Prepared by M.D. Oppenheim & Company, P.C., for the                                        9
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-006-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                      SECTION 1C
       Notes to the Schedule of Actuarial Liability, Net Intra-Governmental
                   Accounts Receivable and Benefit Expense
                As of and For the Year Ended September 30, 2005

      (OMB) economic assumptions for 10-year Treasury notes and bonds. The
      interest rate assumptions utilized for discounting was 4.53% in year 1 and 5.02%
      in subsequent years.

      To provide more specifically for the effects of inflation on the liability for future
      workers' compensation benefits, wage inflation factors (cost of living allowance or
      COLA) and medical inflation factors (consumer price index-medical or CPI-Med)
      are applied to the calculation of projected future benefits. These factors are also
      used to adjust the historical payments to current year constant dollars. The
      liability is determined assuming an annual payment at mid-year.

      The compensation COLA and the CPI-Med used in the model's calculation of
      estimates were as follows:

                          FY           COLA          CPI-Med

                        2006           3.33%          4.09%
                        2007           2.93%          4.01%
                        2008           2.40%          4.01%
                        2009           2.40%          4.01%
                        2010           2.40%          4.01%
      The medical inflation rates presented represent an average of published
      quarterly rates covering the benefit payment fiscal year. The compensation
      factors presented are the blended rates used by the model rather than the
      published June 15, 2005 FECA-COLA factor from which the blended rates are
      derived.

3.    Net Intra-Governmental Accounts Receivable

      Net intra-governmental accounts receivable is the total of the amounts billed to
      Federal agencies through June 30, 2005 but had not been paid as of
      September 30, 2005, including prior year’s amounts billed, if applicable, plus an
      estimated accrued receivable for benefit payments not yet billed for the period
      July 1, 2005 through September 30, 2005, less applicable credits. The Special
      Benefit Fund also receives an appropriation for special cases and older cases
      where employing agencies are not charged for benefit payments.
      Each Federal agency is required by the Federal Employees’ Compensation Act
      to include in their annual budget estimate a request for an appropriation in the
      amount equal to the agency cost. Agencies not receiving an appropriation are
      required to pay agency costs from funds directly under their control.

10                                      Prepared by M.D. Oppenheim & Company, P.C., for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-06-006-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 1C
        Notes to the Schedule of Actuarial Liability, Net Intra-Governmental
                    Accounts Receivable and Benefit Expense
                 As of and For the Year Ended September 30, 2005

       In addition, certain corporations and instrumentalities are assessed under the
       Federal Employees' Compensation Act for a fair share of the costs of
       administering disability claims filed by their employees. The fair share costs are
       included in the net intra-governmental accounts receivable.

4.     Benefit Expense
       Benefit expense for the year ended September 30, 2005 was comprised of the
       following (dollars in thousands):

                Benefits paid for compensation               $ 1,692,469
                Benefits paid for medical benefits               681,038
                Change in accrued benefits                           854
                Change in actuarial liability                    436,968

                    Total benefit expense                    $ 2,811,329




Prepared by M.D. Oppenheim & Company, P.C., for the                                      11
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-006-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




12                                      Prepared by M.D. Oppenheim & Company, P.C., for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-06-006-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund




                                       SECTION 2A
                           Independent Accountants’ Report
                         on Applying Agreed-Upon Procedures

 Victoria A. Lipnic, Assistant Secretary
 Employment Standards Administration, U.S. Department of Labor,
   Government Accountability Office, Office of Management and Budget,
   and Other Specified Agencies:

  We have performed the procedures described in Section 2C, Agreed-Upon
  Procedures and Results, which were agreed to by the U.S. Department of Labor,
  Government Accountability Office, Office of Management and Budget, the CFO Act
  agencies and other specified agencies listed in the Schedules of Actuarial Liability by
  Agency, Net Intra-Governmental Accounts Receivable by Agency and Benefit
  Expense by Agency (Section 2B) of this special report, solely to assist you and such
  agencies with respect to the accompanying Schedules of Actuarial Liability by
  Agency, Net Intra-Governmental Accounts Receivable by Agency and Benefit
  Expense by Agency (Section 2B) of the Federal Employees' Compensation Act
  Special Benefit Fund as of and for the year ended September 30, 2005.

  The Department of Labor is responsible for the Schedules (Section 2B). The
  Schedule of Actuarial Liability by Agency at September 30, 2005, represents the
  present value of the estimated future benefits to be paid pursuant to the Federal
  Employees' Compensation Act. The Schedule of Net Intra-Governmental Accounts
  Receivable by Agency is the total of the amounts billed to Federal agencies through
  June 30, 2005 which had not yet been paid as of September 30, 2005 plus the
  estimated accrued receivable for benefit payments not yet billed for the period July 1,
  2005 through September 30, 2005, less applicable credits. The Schedule of Benefit
  Expense by Agency is the benefits paid and accrued for the fiscal year ended
  September 30, 2005, plus the net change in the actuarial liability for the year.

  This agreed-upon procedures engagement was conducted in accordance with
  attestation standards established by the American Institute of Certified Public
  Accountants and with Government Auditing Standards, issued by the Comptroller
  General of the United States.




Prepared by M.D. Oppenheim & Company, P.C., for the                                      13
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-006-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

An actuary was engaged to perform certain procedures relating to the actuarial liability
as described in Section 2C.

We express no opinion on the Federal Employees' Compensation Act Special Benefit
Fund's internal controls over financial reporting or any part thereof.

The sufficiency of the procedures is solely the responsibility of the parties specified in
this report. Consequently, we make no representation regarding the sufficiency of the
procedures described in Section 2C either for the purpose for which this report has
been requested or for any other purpose. Our agreed-upon procedures and results are
presented in Section 2C of this report.

We were not engaged to, and did not perform an audit of the Schedules of Actuarial
Liability by Agency, Net Intra-Governmental Accounts Receivable by Agency and
Benefit Expense by Agency, the objective of which is the expression of an opinion on
the Schedules or a part thereof. Accordingly, we do not express such an opinion. Had
we performed additional procedures, other matters might have come to our attention
that would have been reported to you.

This report should not be used by those who have not agreed to the procedures and
taken responsibility for the sufficiency of the procedures for their purposes. This report
is intended solely for the information and use of the U.S. Department of Labor,
Government Accountability Office, Office of Management and Budget and those Federal
agencies listed in Section 2B of this report and is not intended to be and should not be
used by anyone other than these specified parties.




October 7, 2005




14                                      Prepared by M.D. Oppenheim & Company, P.C., for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-06-006-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 2B
                            U.S. Department of Labor
                      Employment Standards Administration
            Federal Employees’ Compensation Act Special Benefit Fund
                       Schedule of Actuarial Liability by Agency
                             As of September 30, 2005

                                                                           Actuarial
                                                                            Liability
AGENCY                                                               (Dollars in thousands)
Agency for International Development                                     $     23,726
Environmental Protection Agency                                                39,380
General Services Administration                                               170,113
National Aeronautics and Space Administration                                  62,430
National Science Foundation                                                     1,382
Nuclear Regulatory Commission                                                   8,417
Office of Personnel Management                                                 25,653
United States Postal Service                                                 8,663,963
Small Business Administration                                                  28,967
Social Security Administration                                                284,589
Tennessee Valley Authority                                                    580,506
U. S. Department of Agriculture                                               834,415
U. S. Department of the Air Force                                            1,399,314
U. S. Department of the Army                                                 1,950,173
U. S. Department of Commerce                                                  173,415
U. S. Department of Defense – other                                           844,007
U. S. Department of Education                                                  18,082
U. S. Department of Energy                                                     98,479
U. S. Department of Health and Human Services                                 270,354
U. S. Department of Homeland Security                                        1,473,295
U. S. Department of Housing and Urban Development                              81,613
U. S. Department of the Interior                                              689,306


Prepared by M.D. Oppenheim & Company, P.C., for the                                       15
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-006-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                                         SECTION 2B
                                  U.S. Department of Labor
                            Employment Standards Administration
                  Federal Employees’ Compensation Act Special Benefit Fund
                                  Schedule of Actuarial Liability by Agency
                                        As of September 30, 2005

                                                                                                           Actuarial
                                                                                                            Liability
 AGENCY                                                                                              (Dollars in thousands)
 U. S. Department of Justice                                                                              $    926,336
 U. S. Department of Labor                                                                                     233,651
 U. S. Department of the Navy                                                                                 2,725,371
 U. S. Department of State                                                                                      60,288
 U. S. Department of Transportation                                                                           1,007,910
 U. S. Department of the Treasury                                                                              644,620
 U. S. Department of Veterans Affairs                                                                         1,776,459
 Other agencies 1                                                                                              911,479
 Total - all agencies (Memo Only)                                                                         $ 26,007,693




1 Non-billable and other agencies for which ESA has not individually calculated an actuarial liability.




16                                                           Prepared by M.D. Oppenheim & Company, P.C., for the
                                                             U.S. Department of Labor—Office of Inspector General
                                                                                 Report Number: 22-06-006-04-431
                                                                                                    Special Report Relating to the
                                                                          Federal Employees’ Compensation Act Special Benefit Fund

                                                                          SECTION 2B
                                          U.S. Department of Labor
                                    Employment Standards Administration
                          Federal Employees’ Compensation Act Special Benefit Fund
                                                   Schedule of Net Intra-Governmental
                                                    Accounts Receivable by Agency
                                                       As of September 30, 2005

                                                                                                      Amounts                            Net Intra-
                                                                              Amounts                 Expended           Credits       Governmental
                                                                             Billed Not                Not Yet          Due from         Accounts
                                                                             Yet Paid (1)             Billed (2)        Public (3)     Receivable (4)
                                                                                (Dollars in               (Dollars in    (Dollars in      (Dollars in
AGENCY                                                                         thousands)                thousands)     thousands)       thousands)

Agency for International Development                                            $        6,420           $     1,063    $       (54)       $     7,429
Environmental Protection Agency                                                          7,395                 1,148            (59)             8,484
General Services Administration                                                       29,942                   4,653          (238)             34,357
National Aeronautics and Space Administration                                         13,363                   1,948          (100)             15,211
National Science Foundation                                                                 246                   38             (2)                282
Nuclear Regulatory Commission                                                            1,615                   282            (14)             1,883
Office of Personnel Management                                                           3,427                   689            (35)             4,081
United States Postal Service                                                        (22,418)                 265,630        (13,561)           229,651
Small Business Administration                                                            4,605                   715            (37)             5,283
Social Security Administration                                                        46,408                   7,228          (369)             53,267
Tennessee Valley Authority                                                            67,294                  17,655          (901)             84,048
U. S. Department of Agriculture                                                     137,868                   21,703         (1,107)           158,464
U. S. Department of the Air Force                                                   253,745                   39,369         (2,010)           291,104
U. S. Department of the Army                                                        279,982                   43,820         (2,237)           321,565
U. S. Department of Commerce                                                          26,307                   4,582          (233)             30,656
U. S. Department of Defense – other                                                 158,045                   24,831         (1,268)           181,608
U. S. Department of Education                                                            3,437                   435            (23)             3,849
U. S. Department of Energy                                                            15,675                   2,958          (151)             18,482
U. S. Department of Health and Human Services                                         46,528                   7,568          (387)             53,709

 1 Amount billed through June 30, 2005 (including prior years) but not yet paid as of September 30, 2005.
 2 Amounts paid and accrued but not yet billed for the period July 1, 2005 through September 30, 2005.
 3 Allocation of credits due from the public through September 30, 2005
 4 Total amount due to the fund for each agency as of September 30, 2005.




 Prepared by M.D. Oppenheim & Company, P.C., for the                                                                                                17
 U.S. Department of Labor—Office of Inspector General
 Report Number: 22-06-006-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                                                        SECTION 2B
                                         U.S. Department of Labor
                                   Employment Standards Administration
                         Federal Employees’ Compensation Act Special Benefit Fund
                                                  Schedule of Net Intra-Governmental
                                                   Accounts Receivable by Agency
                                                      As of September 30, 2005

                                                                                               Amounts                               Net Intra-
                                                                    Amounts                    Expended            Credits Due     Governmental
                                                                  Billed Not Yet                Not Yet            from Public       Accounts
                                                                      Paid (1)                 Billed (2)               (3)        Receivable (4)
                                                                       (Dollars in              (Dollars in          (Dollars in      (Dollars in
AGENCY                                                                thousands)               thousands)           thousands)       thousands)
U. S. Department of Homeland Security                                        316,193                    43,740           (2,233)           357,700
U. S. Department of Housing and Urban
Development                                                                     15,193                     2,370           (122)             17,441
U. S. Department of the Interior                                             114,043                    18,018             (920)           131,141
U. S. Department of Justice                                                  155,066                    25,881           (1,321)           179,626
U. S. Department of Labor                                                       44,538                     7,966           (406)             52,098
U. S. Department of the Navy                                                 482,935                    75,184           (3,838)           554,281
U. S. Department of State                                                       14,584                     2,349           (120)             16,813
U. S. Department of Transportation                                           185,540                    29,305           (1,496)           213,349
U. S. Department of the Treasury                                             101,276                    16,015             (818)           116,473
U. S. Department of Veterans Affairs                                         310,388                    49,376           (2,520)           357,244
Other agencies                                                               127,700                    21,978           (1,122)           148,556
Total - all agencies (Memo Only)                                      $ 2,947,340              $ 738,497            $ (37,702)        $ 3,648,135




1 Amount billed through June 30, 2005 (including prior years) but not yet paid as of September 30, 2005.
2 Amounts paid and accrued but not yet billed for the period July 1, 2005 through September 30, 2005.
3 Allocation of credits due from public through September 30, 2005
4 Total amount due to the fund for each agency as of September 30, 2005.



18                                                                               Prepared by M.D. Oppenheim & Company, P.C., for the
                                                                                 U.S. Department of Labor—Office of Inspector General
                                                                                                     Report Number: 22-06-006-04-431
                                                                   Special Report Relating to the
                                         Federal Employees’ Compensation Act Special Benefit Fund

                                          SECTION 2B
                               U.S. Department of Labor
                         Employment Standards Administration
               Federal Employees’ Compensation Act Special Benefit Fund
                           Schedule of Benefit Expense by Agency
                                 As of September 30, 2005

                                                       Benefits        Change in           Total
                                                       Paid and        Actuarial          Benefit
                                                       Accrued          Liability        Expense
                                                        (Dollars in     (Dollars in       (Dollars in
AGENCY                                                 thousands)      thousands)        thousands)

Agency for International Development                     $     3,127       $    (797)      $      2,330
Environmental Protection Agency                                3,623            (901)             2,722
General Services Administration                               14,713           (6,238)            8,475
National Aeronautics and Space Administration                  6,147           (6,446)            (299)
National Science Foundation                                     120               (83)                  37
Nuclear Regulatory Commission                                   834               303             1,137
Office of Personnel Management                                 2,342            2,403             4,745
United States Postal Service                                 840,581        284,131         1,124,712
Small Business Administration                                  2,225              531             2,756
Social Security Administration                                23,322           (3,569)          19,753
Tennessee Valley Authority                                    55,501       (13,955)             41,546
U. S. Department of Agriculture                               68,578           (1,926)          66,652
U. S. Department of the Air Force                            124,381       (19,518)            104,863
U. S. Department of the Army                                 176,020           12,355          188,375
U. S. Department of Commerce                                  14,348           (5,771)            8,577
U. S. Department of Defense - other                           64,121           (3,966)          60,155
U. S. Department of Education                                  1,385           (1,800)            (415)
U. S. Department of Energy                                     9,383            3,295           12,678
U. S. Department of Health and Human Services                 23,977            3,965           27,942
U.S. Department of Homeland Security                         141,062           75,134          216,196


Prepared by M.D. Oppenheim & Company, P.C., for the                                                     19
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-006-04-431
  Special Report Relating to the
  Federal Employees’ Compensation Act Special Benefit Fund

                                                              SECTION 2B
                                      U.S. Department of Labor
                                Employment Standards Administration
                      Federal Employees’ Compensation Act Special Benefit Fund
                                       Schedule of Benefit Expense by Agency
                                             As of September 30, 2005

                                                                                        Benefits           Change in        Total
                                                                                        Paid and           Actuarial       Benefit
                                                                                        Accrued             Liability     Expense
                                                                                        (Dollars in         (Dollars in    (Dollars in
AGENCY                                                                                 thousands)          thousands)     thousands)

U. S. Department of Housing and Urban Development                                               7,597             2,991        10,588
U. S. Department of the Interior                                                               58,105            24,450        82,555
U. S. Department of Justice                                                                    80,316            97,000      177,316
U. S. Department of Labor                                                                      20,397           (2,909)        17,488
U. S. Department of the Navy                                                                 236,754           (18,670)      218,084
U. S. Department of State                                                                       7,190               304         7,494
U. S. Department of Transportation                                                             92,410          (12,590)        79,820
U. S. Department of the Treasury                                                               49,937          (33,652)        16,285
U. S. Department of Veterans Affairs                                                         158,833             23,564      182,397
Other agencies (1)                                                                             87,032            39,333      126,365
Total - all agencies (Memo Only)                                                       $ 2,374,361         $ 436,968      $ 2,811,329




 1 Non-billable and other agencies for which ESA has not individually calculated an actuarial liability.



    20                                                               Prepared by M.D. Oppenheim & Company, P.C., for the
                                                                     U.S. Department of Labor—Office of Inspector General
                                                                                         Report Number: 22-06-006-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 2C

                          Agreed-Upon Procedures & Results

Summary

Our objective was to perform specified agreed-upon procedures on the Schedules of
Actuarial Liability by Agency, Net Intra-Governmental Accounts Receivable by Agency,
and Benefit Expense by Agency as of and for the year ended September 30, 2005.
These procedures were performed in accordance with attestation standards established
by the American Institute of Certified Public Accountants and Government Auditing
Standards, issued by the Comptroller General of the United States.

We applied the following agreed-upon procedures as summarized below:

Actuarial Liability - Consistent with prior years, the actuarial liability was evaluated by an
independent actuary. Agreed-upon procedures were performed on the methodology,
assumptions and information used in the model. The 2005 benefit payments predicted
by the model for 2004 were compared to actual payments made in 2005, and analytical
procedures were performed relating the change in the liability amount by agency to the
change in the aggregate liability.

Net Intra-Governmental Accounts Receivable – Accounts receivable balances as of
September 30, 2005, were confirmed with the CFO Act agencies and other selected
Federal agencies. Agreed-upon procedures were performed on FY 2005 accounts
receivable and compared with FY 2004 accounts receivable regarding new receivables
and collections. We reviewed the 4th quarter estimation methodology for
reasonableness and compared the estimate to the actual.

Benefit Expense - Agreed-upon procedures were applied to the benefit payments made
during the current fiscal year by District office and by agency as compared to benefit
payments of the prior fiscal year. Agreed-upon procedures were applied to DOL’s 4th
quarter estimation methodology. We calculated the change in the actuarial liability from
the prior year to the current year.




Prepared by M.D. Oppenheim & Company, P.C., for the                                        21
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-006-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                        SECTION 2C

                          Agreed-Upon Procedures & Results

ACTUARIAL LIABILITY

Overview

An independent actuary evaluated the actuarial model and the resulting actuarial
liability. The independent actuary issued a report stating the aggregate actuarial liability
was reasonably stated in accordance with Actuarial Standards. We performed agreed-
upon procedures on the calculation of the actuarial liability by employing agency. Our
procedures included considerations of how the change in each agency's liability related
to the change in the total estimate, its own history, its group, and to the benefit
payments made during the current year.

Procedures and Results

Agreed-Upon Procedures Performed            Results of Procedures

Engaged a certified actuary to review the The actuary’s review of the model indicated that
calculations of the actuarial liability as to: the assumptions were appropriate for the
                                               purpose and method applied. The actuary tested
• Whether or not the assumptions used the calculations included in the model and
    by the model were appropriate for the reported that they were performed consistent with
    purpose and method to which they the model's stated assumptions.
    were applied.
                                               The actuary’s review of the model indicated that
• Whether or not such assumptions the assumptions were applied correctly and that
    were applied correctly and if other calculations were performed in such a way as to
    calculations within the model were generate results which are appropriate overall.
    performed in a manner as to generate Additional detailed checks of calculations and
    appropriate results.                       data flow revealed no errors in the methodology
                                               used.

•    Whether or not tests of calculations The methodology and assumptions applied to the
     provided a reasonable basis regarding calculations tested provide a reasonable basis in
     the integrity of the model as a whole. regard to the integrity of the model as a whole.

•    Whether or not the overall results The actuary indicated that the model calculation
     were reasonable.                   of the liability and the overall results were
                                        reasonable under the method and assumptions
                                        used.




22                                        Prepared by M.D. Oppenheim & Company, P.C., for the
                                          U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-06-006-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 2C

                          Agreed-Upon Procedures & Results

Agreed-Upon Procedures Performed             Results of Procedures

Confirmed with the American Academy of       The actuarial specialist was accredited and in
Actuaries and the Casualty Actuarial         good standing with the American Academy of
Society as to whether the actuary was        Actuaries and the Casualty Actuarial Society.
accredited and in good standing with the     The actuarial consulting firm certified that they
associations. Obtained a statement of        were independent from the DOL. The actuarial
independence from the actuarial firm and     consulting firm provided references stating
two references from clients of the           experience in the type of work required for this
actuarial firm as to the actuary's work.     engagement. The references were contacted,
                                             and they confirmed the actuary possessed the
                                             expertise and experience required for this
                                             engagement.

Compared and evaluated the economic          The model utilizes estimates of prospective
assumptions used by the model for 2004       inflation and interest rates to project and then
to the assumptions used during the           discount future benefit payments. As published
current year.                                by OMB, prospective interest rates of 10-year
                                             Treasury bills decreased from 5.2% for the prior
                                             year to an average of 4.97% for the current year.

                                             The Bureau of Labor Statistics’ (BLS) estimates
                                             of COLA increased from a 10-year average of
                                             2.40% for the prior year to a 10-year average of
                                             2.53% for the current year, and CPI-Med factors
                                             increased by .01% to a 10-year average of
                                             4.03%.

                                             In combination, these rate changes resulted in a
                                             decrease in the net effective rate (interest rate
                                             less inflation rate) of approximately 14% (from
                                             2.47% to 2.12%). The result of the changes in
                                             estimated prospective rates was to increase the
                                             estimated actuarial liability by approximately
                                             3.7% from what the liability would have been had
                                             2004 rates been used for the year 2005
                                             calculation.

Compared the interest (used for              The interest rates used in the model were the
discounting the future liability to the      same interest rates stated in OMB’s publication.
present value) and inflation rates used by   The inflation rates used in the model were
the model to the source documents from       derived from the indices cited. No exceptions
which they were derived.                     were noted.


Prepared by M.D. Oppenheim & Company, P.C., for the                                         23
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-006-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

Agreed-Upon Procedures Performed               Results of Procedures

Compared the estimated actuarial liability     The liability reported in the Memorandum issued
by agency, as reported in a Memorandum         to the CFOs of Executive Departments of the
to the CFOs of Executive Departments           unaudited, estimated actuarial liability for future
issued by DOL’s Chief Financial Officer,       workers' compensation benefits agreed with the
to the liability calculated by the model and   liability calculated by the model and reported on
reported on the Projected Liability            the Projected Liability Reports.
Reports.

Compared both the current year benefit         There were three errors resulting in less than
payments by agency and the aggregate           .003% impact on the liabilities of any agencies
2001-2005 benefit payments used by the         affected.
model with the amount of benefit
payments reflected in the Summary              The 2001-2005 benefits input into the model
Chargeback Billing Report. Determined          agreed to the previous years’ Chargeback Billing
whether the benefit payment data used by       Reports without exception.
the model was the same data on which
agreed-upon procedures for benefit
payments were performed.

Determined whether the implementation          The $15 million adjustment made to the liability
of the new compensation payment                calculation in 2004 (related to the implementation
system, iFECS, in FY 2005 or the FY            of CBP) was not carried forward as an increase in
2004 implementation of the medical bill        2005 and was not reversed in the current year.
payment system, CBP, resulted in any           DOL concluded no further adjustment was
adjustments to the actuarial liability         necessary in 2005. The actuarial review
calculation in    the   current  year.         performed determined the methodology and
Requested an explanation for any               assumptions were reasonable.
adjustments made and determined if
reasonable.                                    In FY 2005 a delay in processing compensation
                                               payments     was    identified due    to    the
                                               implementation of iFECS. The impact on the
                                               actuarial liability was calculated to be
                                               approximately .2%. No adjustment to the liability
                                               was deemed necessary by DOL.




24                                         Prepared by M.D. Oppenheim & Company, P.C., for the
                                           U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-006-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                        SECTION 2C

                          Agreed-Upon Procedures & Results

Agreed-Upon Procedures Performed              Results of Procedures

Determined the basis of the agency            The groupings were consistent with the prior
groupings and performed tests to              year.
compare the consistency of the grouping
with the prior year. Determined the impact    The liabilities are allocated to five agency groups
on applicable agencies of such inclusion      based on identifiable risk characteristics that can
in a grouping.                                be expected to produce similar loss development
                                              patterns and similar loss cost per exposure unit.
                                              The agency group liability is then allocated to
                                              each agency in accordance with that agency’s
                                              specific characteristics: open claims, claim
                                              development history, etc. The impact on the
                                              agencies is to produce more stable and accurate
                                              predictions.

Calculated the change in the actuarial        The aggregate liability increased approximately
liability by agency and in the aggregate.     1.6%. Agency liabilities that changed by more
Compared the variances of agency              than 10% include OPM (96.17%) and DOJ
actuarial liabilities that changed by more    (11.70%).
than 10 percent with the results of a
Liability to Benefits Paid (LBP) ratio        Both agencies had an increase in benefits paid in
predictive test (which applies the LBP        2005 (OPM 75% and DOJ 8%). Predictive tests
ratio to each agency’s prior year liability   for OPM and DOJ were lower than the model
adjusted for their change in benefit          calculation by -5.9% and -3.6%, respectively,
payments and economic assumptions).           which is within 10% of the actual liabilities.
For agencies whose change in actuarial        Therefore, no additional explanation was
liability was not within 10 percent of        necessary.
predictive test results, identified the
reason or requested an explanation.




Prepared by M.D. Oppenheim & Company, P.C., for the                                            25
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-006-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                         SECTION 2C

                           Agreed-Upon Procedures & Results

Agreed-Upon Procedures Performed               Results of Procedures

Calculated the ratio of the liability to the   The Liabilities to Benefits Paid ratio (LBP) was
benefit payments (LBP) by agency and           11.0. By group, the ratio ranged from 10.2
compared this to the agency group ratio.       (Group V-USPS) to 12.3 (Group III).
Identified and requested explanations for
those agencies for which the ratio varied      The following agencies varied by more than 10%
by more than 10 percent from their group       from their group’s ratio and fell outside the group
ratio and laid outside the range of group      range: USAID (7.6-Group III), State (8.7-Group
averages based on predictive test results.     IV), NASA (9.3-Group IV) and OPM (16.9-Group
                                               III).

                                               The model calculated within 10% of a predictive
                                               test based upon each agency’s prior year liability
                                               adjusted for their change in benefit payments and
                                               economic assumptions for all but USAID. The
                                               model calculation for USAID was lower than the
                                               prediction by approximately 19.2%.

                                               We noted that USAID's benefit payments
                                               increased by 9.9% in actual dollars during 2005.
                                               The model would gradually reflect such changes
                                               if maintained, whereas the prediction would
                                               immediately calculate in increase.

Compared the benefit payments predicted        Actual payments were approximately 16.7%
by the model for 2005 to the actual            lower than predicted by the model.
benefit payments. Identified the agencies
where the model computed benefit               The following agencies’ actual payments varied
payments that varied by more than 20           from the prediction by more than 20% and $2
percent and $2 million from actual benefit     million: Treasury -22.1% ($14.3 million), DHS
payments made during 2005.                     -36.9% ($80.8 million), DOL -20.9% ($5.0
                                               million), and USPS -21.8% ($234.3 million).

                                               For all four agencies the model calculated within
                                               10% of predictive test results performed by the
                                               auditor based upon each agency’s prior year
                                               liability adjusted for their change in benefit
                                               payments and economic assumptions.




26                                         Prepared by M.D. Oppenheim & Company, P.C., for the
                                           U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-06-006-04-431
                                                                    Special Report Relating to the
                                          Federal Employees’ Compensation Act Special Benefit Fund

                                              SECTION 2C

                               Agreed-Upon Procedures & Results

    Agreed-Upon Procedures Performed               Results of Procedures

    Compared an estimate of the liability by The calculated amounts were within 10% of
    agency (calculated from the agency’s amounts derived by DOL’s model for all agencies
    prior year balance, the change in their except NRC (16%) and USAID (-19.2%).
    benefit payments, and the overall effect of
    the change in economic factors) to the
    liability computed by the actuarial model.

    Performed a limited survey of interest and     Surveyed rates for compensation ranged from
    inflation rates utilized by the USPS, OPM,     +1.73% to +3.50% and for medical ranged from
    and two other sources with governmental        -2.98% to +1.43%. The model's rates compute to
    actuarial        liabilities     experience.   net effective rates of approximately 2.4% for
    Determined how the surveyed, net               compensation and 1.0% for medical. The model's
    effective rates compared to the interest       rates fell within the range of surveyed rates.
    rates used in the model and explained the
    effect of the rate difference.

    Compared the actuarial liability for the We obtained and reviewed the USPS calculation.
    USPS calculated by the model to the The USPS calculated liability was 17% lower than
    actuarial liability calculated by the USPS’s DOL's calculation.
    independent model.
                                                 We adjusted the DOL calculation of the USPS
                                                 liability to match the USPS economic
                                                 assumptions. The USPS calculation of $7.2
                                                 billion was 7% or $600 million lower than our
                                                 adjusted calculation of $7.8 billion. Therefore, the
                                                 difference    in   assumptions       accounts     for
                                                                              1
                                                 approximately $900 million (60%) of the $1.5
                                                 billion difference.      Based on our other
                                                 procedures, the economic assumptions used by
                                                 DOL appear reasonable.

                                                   We also noted that Postal's LBP ratio was low
                                                   compared to most of the agencies in the model
                                                   indicating that their liability was not high in
                                                   relation to the other agencies. Our predictive test
                                                   was within 5%.




1
 Original difference of $1.5 billion less the adjusted difference of $600 million equals a change in the
difference of $900 million.
Prepared by M.D. Oppenheim & Company, P.C., for the                                                        27
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-006-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 2C

                          Agreed-Upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Overview

Confirmation letters regarding the accounts receivable due as of September 30, 2005,
were mailed and confirmed with the CFO Act agencies and other selected Federal
agencies. Agreed-upon procedures were performed on FY 2005 accounts receivable
and compared with FY 2004 accounts receivable concerning new receivables and
collections. We reviewed the 4th quarter estimation methodology for reasonableness
and compared the estimate to the actual.

Procedures and Results

Agreed-Upon Procedures Performed               Results of Procedures

Compared prior year ending net intra-          The change in the net intra-governmental
governmental accounts receivable balances to   accounts receivable balances was in
the current year net intra-governmental        proportion to the increases in benefit payments
accounts receivable balance by Federal         billed to and paid by each Federal agency.
agency. Determined whether the increase or
decrease was in proportion to the change in
amounts billed and collected.

Compared the Summary Chargeback Billing The amounts billed to the Federal agencies for
Report for the period July 1, 2004 through the period July 1, 2004 through June 30, 2005,
June 30, 2005, to the amounts billed to the agreed to the chargeback billing report.
Federal agencies.

Confirmed accounts receivable balances due     Confirmations were reviewed and explanations
as of September 30, 2005, for all CFO Act      for any differences were obtained from the
agencies except DOL and other selected         agencies and/or DOL. A confirmation was not
Federal agencies.                              received from the Nuclear Regulatory
                                               Commission. The DOL accountant responsible
                                               for reconciling intra-governmental activity
                                               works monthly with other Federal agencies to
                                               research and correct any differences.

Recalculated the allocation of credits due from No exceptions were noted.
the public.




28                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 22-06-006-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 2C

                          Agreed-Upon Procedures & Results

Agreed-Upon Procedures Performed               Results of Procedures

For a non-statistical sample of at least 50    Of the 50 claimant accounts receivable tested,
claimant receivables, determined whether       we noted 12 instances in which the
claimant accounts receivable were properly     establishment, recording, or processing of the
established and classified.                    receivable or related recoveries (cash receipts
                                               and benefit recoupments) was not done in
                                               accordance with established policy and/or
                                               related accounting standards.

Reviewed the 4th quarter estimation The difference between the estimate and the
methodology    for    reasonableness and actual was $977 thousand or -0.77%.
compared the estimate to actual.




Prepared by M.D. Oppenheim & Company, P.C., for the                                        29
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-006-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                      SECTION 2C

                         Agreed-Upon Procedures & Results

BENEFIT EXPENSE

Overview

Agreed-upon procedures were applied to compensation and medical benefit payments in total
and by agency for the fiscal year ended September 30, 2005, the chargeback period ended
June 30, 2005, and the sampling period of October 1, 2004 to April 30, 2005. Changes in the
actuarial liability from the prior year to the current year were calculated. Agreed-upon
procedures were applied to DOL's current year 4th quarter estimation methodology.

Procedures and Results

Agreed-Upon Procedures Performed              Results of Procedures

Compared the benefit payments recorded in     The benefit payments recorded in iFECS and
the    Integrated   Federal   Employees’      the CBP databases varied from the SF-224s by
Compensation System (iFECS) and Central       $3 million (.2%) as of April 30, 2005.
Bill Processing (CBP) databases to the
Department of Treasury’s SF-224s as of        As of September 30, 2005, the iFECS and CBP
April 30, 2005 and September 30, 2005.        databases varied from the SF-224s by $42
                                              million (1.7%).

Performed a trend analysis on the total The 2005 benefits decreased by 0.24% over
benefit payments for the last 5 chargeback 2004. No variances over 10% were noted.
years ended June 30.        We requested
explanations from DOL for variances over
10 percent.

Compared the Summary Chargeback Billing       Comparison of the Summary Chargeback
Report to the total benefit payments in the   Billing Report to the total benefit payments in
iFECS and CBP databases for the fiscal        the iFECS and CBP databases for the fiscal
year ended September 30, 2005.                year ended September 30, 2005 resulted in a
                                              3.7% or $86 million variance.




30                                      Prepared by M.D. Oppenheim & Company, P.C., for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-06-006-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 2C

                          Agreed-Upon Procedures & Results

Agreed-Upon Procedures Performed              Results of Procedures

Compared by agency, benefit payments for      Benefit payments for the nine months ending
the nine months ending June 30, 2005, with    June 30, 2005 decreased by 3.1% overall from
total benefit payments made for the nine      June 30, 2004. Benefit payments increased or
months ending June 30, 2004.          We      decreased by more than 10% for the following
requested explanations from DOL for any       agencies:
variances over 10 percent.
                                              OPM      141.55%
                                              NASA      -15.42%
                                              NRC        22.95%

                                              DOL stated that NRC is a very small agency, so
                                              the increase could be one or two
                                              hospitalizations or surgeries. During FY 2005,
                                              a small activity, which included about 164
                                              cases, was transferred from the Department of
                                              Defense (AODF) to the Office of Personnel
                                              Management (OPM).

                                              NASA is a small agency with an aggressive
                                              workers’ compensation initiative that includes
                                              safety, timely filing and return to work. They
                                              have significantly reduced the number of lost
                                              production days due to on-the-job injury.

Compared by agency, benefit payments for      Benefit payments for the fiscal year ending
the fiscal year ending September 30, 2005     September 30, 2005 decreased by 1.96%
with benefit payments made for the fiscal     overall from September 30, 2004. Benefit
year ending September 30, 2004, and           payments increased or decreased by more than
verified that explanations obtained as of     10% for the following agencies:
June 30 were consistent with September 30
results.                                      OPM 117.74 %
                                              NASA -12.45%

                                              The explanations obtained as of June 30, which
                                              are shown in the preceding results section,
                                              were consistent with the September 30 results.




Prepared by M.D. Oppenheim & Company, P.C., for the                                       31
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-006-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund

                                      SECTION 2C

                         Agreed-Upon Procedures & Results

Agreed-Upon Procedures Performed             Results of Procedures

Compared the benefit payments made by        For the nine months ended June 30, 2005,
each District office for the nine months     benefit payments increased or decreased over
ended June 30 2005 to the prior year data.   the nine months ended June 30, 2004 by more
We requested explanations from DOL for       than 10% for the following districts:
variances over 10 percent.
                                             •   DO 03 Philadelphia          18.35%
                                             •   DO 10 Chicago             -10.86%
                                             •   DO 25 Washington           -22.55%
                                             •   DO 50 National Office     -14.72 %

                                             DOL stated that cases were transferred from
                                             Washington to Philadelphia and Cleveland
                                             district offices.  Chicago has a high cost
                                             catastrophic case. During the October 1 to June
                                             30, 2004 period, two large medical payments
                                             were made on the case that totaled over $3
                                             million.

                                             The National Office stopped providing routine
                                             maintenance for cases awaiting hearing, and
                                             returned the jurisdiction of issues unrelated to
                                             the hearing to the District offices. Therefore,
                                             payments previously processed in the National
                                             Office are now processed in the District offices.

Compared by District office, benefit         As of September 30, 2005, benefit payments
payments for the fiscal year ending          increased or decreased from September 30,
September 30, 2005 with benefit payments     2004 by more than 10% for the following
made for the fiscal year ending              districts:
September 30, 2004, and verified that
explanations obtained as of June 30 were         •DO 03 Philadelphia   19.6%
consistent with September results.               •DO 25 Washington DC -17.3%

                                             The benefit payments decreased overall by .3%
                                             from September 30, 2004 to September 30,
                                             2005. The explanations obtained as of June 30,
                                             which are shown in the preceding results
                                             section, were consistent with the September
                                             results.



32                                      Prepared by M.D. Oppenheim & Company, P.C., for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-06-006-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

                                       SECTION 2C

                          Agreed-Upon Procedures & Results

Agreed-Upon Procedures Performed              Results of Procedures

Calculated a 12-month projected benefit The actual 12-month total benefit payments
payment based on the April 30, 2005 iFECS were 7.45% less than the 12-month projection
and CBP databases (7 months). Compared for the fiscal year ending September 30, 2005.
the projected 12-month total benefit
payments to the actual 12-month total
benefit payments for the year ended
September 30, 2005.

Compared the FY 2005 4th quarter benefit      Compared 4th quarter benefit payment
payment estimate to the actual benefits       estimate to the actual 4th quarter benefit
paid for the 4th quarter per the iFECS and    payments per the databases resulting in a $32
CBP databases.                                million variance (5.5%).

Calculated the change in the actuarial The change in the actuarial liability was
liability reported on the current year and calculated correctly by DOL for the fiscal year
prior year’s compilation report prepared by ended September 30, 2005.
DOL.

Obtained and reviewed the most recent An Independent Service Auditors’ report on the
Independent Service Auditors’ Report on ACS Central Bill Processing System for the
the ACS Central Bill Processing System. period ending April 30, 2005 was obtained and
                                        reviewed.        These results have been
                                        incorporated into the Independent Service
                                        Auditors’ Report on the Integrated Federal
                                        Employees’ Compensation System and Central
                                        Bill Process, dated September 15, 2005, and
                                        issued to DOL and Federal agencies with
                                        responsibilities under the FECA program.




Prepared by M.D. Oppenheim & Company, P.C., for the                                      33
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-006-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




34                                      Prepared by M.D. Oppenheim & Company, P.C., for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-06-006-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund




Appendix




Prepared by M.D. Oppenheim & Company, P.C., for the                                      35
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-006-04-431
Special Report Relating to the
Federal Employees’ Compensation Act Special Benefit Fund




36                                      Prepared by M.D. Oppenheim & Company, P.C., for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-06-006-04-431
                                                              Special Report Relating to the
                                    Federal Employees’ Compensation Act Special Benefit Fund

ACRONYMS and ABBRVIATIONS

                ACS                    Affiliated Computer Services
                AODF                    All Other Defense
                AUP                    Agreed Upon Procedures
                CBP                    Central Bill Processing System
                CFO                    Chief Financial Officers’ Act
                COLA                   Cost of Living Allowance
                CPI-Med                Consumer Price Index for Medical
                DHS                    U.S. Department of Homeland Security
                DOJ                    U.S. Department of Justice
                DOL                    U.S. Department of Labor
                ESA                    Employment Standards Administration
                FECA                   Federal Employees' Compensation Act
                IBNR                   Incurred But Not Reported
                iFECS                  Integrated Federal Employees’ Compensation
                                       System
                LBP                    Liability to Benefits Paid
                NASA                   National Aeronautics and Space Administration
                NRC                    Nuclear Regulatory Commission
                NSF                    National Science Foundation
                OMB                    Office of Management and Budget
                OPM                    Office of Personnel Management
                OWCP                   Office of Workers' Compensation Programs
                SBA                    Small Business Administration
                SFFAS                  Statement of Federal Financial Accounting
                                       Standards
                SSA                    Social Security Administration
                USAID                  U.S. Agency for International Development
                USPS                   U.S. Postal Service




Prepared by M.D. Oppenheim & Company, P.C., for the                                      37
U.S. Department of Labor—Office of Inspector General
Report No: 22-05-003-04-431
